CERTIFICATE OF SERVICE
NO. 20-315
Jose Santos Sanchez, Et al.
Petitioners,
v.
Alejandro N. Mayorkas, Secretary of Homeland Security, Et al.
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
HARVARD TPS COALITION AMICUS IN SUPPORT OF PETITIONER, by mailing three (3) true and correct
copies of the same by Fedex 2-Day, prepaid for delivery to the following addresses.
Jaime Winthuysen Aparisi
8630 Fenton Street
Suite 925
Silver Spring, MD 20910
(301) 562-1416
jaime@aparisi.com
Counsel for Jose Santos Sanchez, Et al.

Elizabeth Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Alejandro N. Mayorkas, Secretary of
Homeland Security, Et al.

Lucas DeDeus

March 1, 2021
SCP Tracking: -Harvard Law School-Cover Cream

